>
I

C@OCKLE

: E-Mail Address:
Legal B tieis contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1353

AGI CONSULTING LLC, BY ASSAF AL-ASSAF
AS TRUSTEE/OWNER/PLAN ADMINISTRATOR
OF AN ALLEGED NON-INTEGRATED
DEFINED BENEFIT PLAN,

Petitioner,
Vv.
AMERICAN NATIONAL INSURANCE COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3949 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this Ist day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

‘My Comm. Exp. September 5, 2023

 

er] Keres 0 tooo Ondbaw- th. Cle

Notary Public Affiant 39913
